               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Fiscal Year 2012 Financial Testing
   Compliance Oversight Business Mail
   Entry Unit/Staged Detached Mail Unit
                 Reviews

         Management Advisory Report




                                              February 6, 2013

Report Number FT-MA-13-006
                                                                         February 6, 2013

                                                   Fiscal Year 2012 Financial Testing
                                           Compliance Oversight Business Mail Entry
                                             Unit/Staged Detached Mail Unit Reviews

                                                          Report Number FT-MA-13-006


BACKGROUND:
The Postal Accountability and                 Service’s financial statements and
Enhancement Act of 2006 required the          internal controls over financial reporting.
U.S. Postal Service to comply with
Section 404 of the Sarbanes-Oxley Act         WHAT THE OIG FOUND:
and report on the effectiveness of the        We observed testing at 27 of 219
agency's key internal controls over           sampled sites. We found that analysts
financial reporting. The Postal Service       did not properly test, document, and
established the Financial Testing             report their examination of key financial
Compliance group to test these key            reporting controls for mail verification
financial controls at postal units.           and acceptance at three of the 27 sites
                                              observed. Specifically, analysts did not
This report addresses key financial           test postage statement completeness at
control testing at business mail entry        one site and did not accurately
units and detached mail units operating       document work performed at two sites.
in a staged environment. Business mail        These errors occurred because data
entry units process bulk business mail.       collectors and managers did not provide
Detached mail units are Postal Service        adequate oversight and review. The risk
work areas or offices located in a            of not identifying, correcting, or reporting
business mailer's facility. In a staged       internal control deficiencies increases
detached mail unit environment,               when analysts do not test key controls
employees finalize and stage a single         or accurately document work performed.
mail run and attach the associated
postage statement for acceptance and          WHAT THE OIG RECOMMENDED:
verification.                                 We did not make recommendations in
                                              this report but provided our observations
Our objective was to evaluate whether         to the independent public accounting
the Postal Service properly tested,           firm and Postal Service management
documented, and reported their                throughout the year. Management took
examination of key financial reporting        corrective action by testing the missed
controls for mail verification and            control and corrected documentation to
acceptance at business mail entry and         correctly report work performed. The
staged detached mail units.                   firm used the information to support its
                                              opinions on the fiscal year 2012 Postal
We conducted this review in support of        Service financial statements and
the independent public accounting firm’s      controls over financial reporting.
reliance on management’s testing and
overall audit opinions on the Postal          Link to review the entire report
February 6, 2013

MEMORANDUM FOR:            TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Management Advisory Report – Fiscal Year 2012
                           Financial Testing Compliance Oversight Business Mail Entry
                           Unit/Staged Detached Mail Unit Reviews
                           (Report Number FT-MA-13-006)

This report presents the results of our review of the U.S. Postal Service’s Financial
Testing Compliance work at business mail entry units/detached mail units (Project
Number 12BD002FI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Steven R. Phelps
    Janet F. Meddick
    Corporate Audit and Response Management
Fiscal Year 2012 Financial Testing Compliance Oversight                                                            FT-AR-13-006
 Business Mail Entry Unit/Staged Detached Mail Unit Reviews


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Financial Testing Compliance Audit Program ................................................................. 2

Financial Testing Compliance Documentation ................................................................ 2

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 4

   Prior Audit Coverage ................................................................................................... 6

Appendix B: Management's Comments .......................................................................... 7
Fiscal Year 2012 Financial Testing Compliance Oversight                       FT-AR-13-006
 Business Mail Entry Unit/Staged Detached Mail Unit Reviews



Introduction

This report presents the overall results of our fiscal year (FY) 2012 Financial Testing
Compliance (FTC) Oversight Reviews for business mail entry units (BMEU) and
detached mail units operating in a staged environment (staged DMU) (Project Number
12BD002FI000). We conducted these oversight reviews to support the independent
public accounting (IPA) firm’s reliance on U.S. Postal Service’s management testing of
the Sarbanes-Oxley Act (SOX) key financial controls and to provide increased focus on
the remediation of control failures in the field. Our overall objective was to evaluate
whether the FTC group properly tested, documented, and reported their examination of
key SOX financial reporting controls. For this review, we specifically evaluated whether
the FTC group properly tested, documented, and reported their examination of controls
related to mail verification and acceptance at business mail entry and staged DMU. This
audit addresses financial risks. See Appendix A for additional information about this
audit.

BMEUs process bulk business mail and acceptance employees verify that mail is
properly prepared and revenue is recorded timely. DMUs are Postal Service work areas
or offices located in a business mailer's facility. Mail verification procedures for DMUs
and BMEUs are identical. In a staged DMU environment, employees present postage
statements at the time of mail acceptance and verification.

Conclusion

We observed the FTC group conducting tests at 27 of 219 sampled sites during postal
quarters 1 through 4 of FY 2012. We found that FTC analysts did not properly test,
document, and report their examination of key SOX financial reporting controls for mail
verification and acceptance at business mail entry and staged DMU at three of the 27
sites we observed. Specifically, the analysts did not test the key control over completed
postage statements at one site and did not accurately document work performed
regarding mail check-in and verification at two sites. The risks of not identifying and
correcting internal control deficiencies and reporting incorrect overall results increase
when analysts do not test key controls or accurately document work performed.

We communicated our oversight results to management via weekly discussions and by
issuing quarterly interim reports. We also communicated our results to the IPA firm via
weekly discussions and quarterly capping spreadsheets. Because the IPA firm used the
information to support its opinions on FY 2012 Postal Service financial statements and
controls over financial reporting, and Postal Service resolved the issues during the year
when we brought these matters to its attention, we are not making any
recommendations in this report.




                                                   1
Fiscal Year 2012 Financial Testing Compliance Oversight                                                FT-AR-13-006
 Business Mail Entry Unit/Staged Detached Mail Unit Reviews


Financial Testing Compliance Audit Program

FTC analysts did not follow their written test procedures at one of 27 sites we visited.
Specifically, the analysts did not test the key control for postage statement
completeness at a staged DMU. The test procedure required the analysts to perform the
test at the BMEU that provides oversight to the DMU when the DMU uses only
electronic postage statements. Instead, the analysts documented that they did not test
the control because of the unavailability of hard copy postage statements at the DMU.
Further, the analyst did not go to the oversight BMEU site to perform the test. The FTC
group manager stated this error occurred due to an oversight. When we brought this
matter to the FTC group’s attention, management stated the FTC analysts returned to
the host BMEU and conducted the test as required.

Financial Testing Compliance Documentation

At two of 27 sites, the FTC analysts did not properly document their examination of key
SOX financial reporting controls. Specifically, at one site, the FTC analysts correctly
noted in their documentation that an exception occurred when the bulk mail technician
failed to perform a required test during the initial verification of a periodicals mailing.
However, in the same document, analysts contradicted this exception by stating that all
mailings passed the initial cursory review and further stated that there were no
exceptions. The group manager stated this error occurred due to an oversight.
Management agreed with our finding, took corrective action, and revised and posted
corrected documentation and properly reported the exception.

At a second site, the FTC analyst did not properly document the observation for the mail
check-in control step.1 The analyst erroneously documented in his work papers that he
did not test the control because the facility had not yet started the mailing process at the
facility on the day of testing. In addition, the analyst documented that employees did not
complete the check-in process in PostalOne!2 for the selected transaction, indicating an
exception. However, the analyst properly documented in the report documentation that
the control was tested and provided a copy of the postage statement that he observed
during the check-in process. This exception occurred because the analyst entered
information related to a different test site on the supporting documents for this site, and
FTC reviewers did not catch the error. FTC management agreed with our finding and,
as a result, management took corrective action and revised their work papers.

See Table 1 in Appendix A for the list of test sites we observed, report number, and
dates we issued these interim reports.




1
  Upon arrival of mail at a unit, mail acceptance personnel check in postage statements by entering required fields
into the PostalOne! system. The purpose of the check- in process is to create a record of the mailing in PostalOne!.
2
  PostalOne! is an integrated electronic system that records mailing transactions, receives payments and simplifies
record keeping and the retrieval of mailing data.


                                                          2
Fiscal Year 2012 Financial Testing Compliance Oversight                          FT-AR-13-006
 Business Mail Entry Unit/Staged Detached Mail Unit Reviews


Recommendations

We are not making recommendations in this report because management took
corrective action. Further, we provided our observations to the IPA firm and Postal
Service management throughout the year via interim quarterly reports.

Management’s Comments

Management agreed in principal with all findings and that there were opportunities for
documentation improvements in the three instances cited. However, they stated they
did not agree with our assertion that the findings represent a high risk of reporting an
incorrect result. Management maintained their assessment is based on the
comprehensive quality review that exists at the end of each quarter – a review designed
to identify these types of issues before final submission to the external auditors. In
addition, management stated this review process traces each control activity’s final
written conclusions back to the original finding identified at the time of testing, ensuring
that the final written and printed documents are in agreement with the documentation
contained within the analysts’ documentation. Finally, management described the
actions they took to address the findings we had reporting throughout the fiscal year.

See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the findings as management has identified the underlying
factors that led to the findings and corrective actions should resolve the issues identified
in the report. We agree with management that these issues do not represent a high risk
of reporting an incorrect result but rather an increased risk, as noted in our conclusion.




                                                   3
Fiscal Year 2012 Financial Testing Compliance Oversight                       FT-AR-13-006
 Business Mail Entry Unit/Staged Detached Mail Unit Reviews


                             Appendix A: Additional Information

Background

The Postal Accountability and Enhancement Act of 2006 required the Postal Service to
comply with Section 404 of SOX. To comply with Section 404 requirements, the Postal
Service must report on the effectiveness of the agency’s key internal controls over
financial reporting. It must submit an annual assessment to the Postal Regulatory
Commission who monitors and manages the Postal Service’s compliance with SOX.

This report addresses key financial control testing at BMEU and DMU operating in a
staged DMU. BMEUs process bulk business mail, and acceptance employees verify
that mail is properly prepared and ensure acceptance employees recorded the revenue.

DMUs are Postal Service work areas or offices located in a business mailer's facility.
Mail verification procedures for DMUs and BMEU are identical. In a staged DMU
environment, mailers present postage statements at the time of mail acceptance and
verification.

Most of the mailings entered at a BMEU and staged DMU are presorted and receive a
discounted rate. Presorting mail is a work-sharing incentive that offers discounted
postage rates to customers for performing some of the work associated with mail
processing. Unless business mailings are properly prepared to qualify for the discounts
claimed, the Postal Service incurs increased processing costs.

Key internal controls over financial reporting for BMEUs and staged DMUs include
revenue completeness assurance by testing mail acceptance initial and in-depth mail
preparation verifications, the mail check-in procedures, postage statement
completeness, and end-of-day recompilations. In addition, the Postal Service uses the
PostalOne! system to process postage statements and to record and track trust fund
account information for authorized mailers.

Objective, Scope, and Methodology

Our overall objective was to evaluate whether the FTC group properly tested,
documented, and reported their examination of key SOX financial reporting controls for
mail verification and acceptance at business mail entry and staged DMUs. We
conducted these oversight reviews in support of the IPA firm’s reliance on
management’s testing and overall audit opinions on the Postal Service’s financial
statements and internal controls over financial reporting.

To accomplish our objective, we observed FTC staff conducting key financial control
tests that included the initial mail acceptance and the in-depth mail preparation
verifications, mail check-in procedures, postage statement completeness, and end of
day recompilations at 27 randomly selected sites. We also determined whether the FTC
group provided supporting documentation for the work performed. We issued interim



                                                   4
Fiscal Year 2012 Financial Testing Compliance Oversight                                               FT-AR-13-006
 Business Mail Entry Unit/Staged Detached Mail Unit Reviews


reports each postal quarter to communicate the results of our reviews. Table 1 shows
the 27 sites we observed by postal quarter.3

        Table 1: Number and Type of OIG Oversight Reviews of FTC SOX Testing

                                  OIG Oversight Review of FTC Testing
                                                                                                        Postal
                 Site Visited                        Report Number               Report Date            Quarter
        Mac Direct                                      FI-MA-12-005               March 1, 2012                     1
        Belton BMEU
        Hart Hanks
        Twin Cities BMEU
        Great Falls BMEU
        Long Beach Permit BMEU
        Regulus DMU

        South Hackensack BMEU                           FI-MA-12-009                May 29, 2012                     2
        Source Link DMU
        Milwaukee Pitney Bowes DMU
        Conshohocken BMEU
        Sebastapol BMEU
        Pitney Bowes Presort Services
         DMU
        Incorporated DMU
        Walled Lake BMEU
        Dallas Permit                                   FI-MA-12-011            August 16, 2012                      3
        Skokie BMEU
        Advance Response Systems
         DMU
        IMS Western New York DMU
        Fox Valley Presort Solutions
         DMU
        Red Bank BMEU
        Milwaukee BMEU
        Tribune Direct Marketing DMU
        Cawood DMU
        Medco Health DMU
        Louisville AMF BMEU
        Columbus BMEU                                  FT-MA-13-001            October 31, 2012                      4
        Vista BMEU
Source: OIG analysis.

We conducted this review from October 2011 to February 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation.

3
 An accounting division of the fiscal year that consists of 3 monthly accounting periods that are based on calendar
months. Postal Quarter 1 – October 1 through December 31, 2011; Postal Quarter 2 – January 1 through March 31,
2012; Postal Quarter 3 – April 1 through June 30, 2012; and Postal Quarter 4 – July 1 through September 30, 2012.




                                                         5
Fiscal Year 2012 Financial Testing Compliance Oversight                          FT-AR-13-006
 Business Mail Entry Unit/Staged Detached Mail Unit Reviews



We provided a discussion draft copy of this report to management on January 2, 2013,
and, because we did not make any recommendations, management chose to respond
formally to the discussion draft copy in lieu of a scheduling a formal exit meeting.

We assessed the reliability of computer-generated data by verifying it to source records
to determine whether Postal Service revenue was accurately recorded. Specifically, we
observed FTC analysts use PostalOne! reports during testing, and we verified the
reliability of PostaOne! by comparing report data to the postage payments source
documentation. We determined that the data were sufficiently reliable for the purpose of
this report.

Prior Audit Coverage

                                                            Final Report       Monetary
          Report Title                Report Number             Date            Impact
Fiscal Year 2011 Financial             FI-MA-12-003          1/20/2012           None
Testing Compliance Oversight
Reviews
Report Results:
The FTC group made significant improvements in their testing of key SOX financial
reporting controls in FY 2011. However, opportunities existed to improve the quality of
conducting tests and documenting test results. Specifically, the FTC group did not
identify testing errors in four site reviews, did not perform steps in accordance with their
program in three site reviews, and did not adequately document their work in two site
reviews. As a result, OIG did not always agree with FTC site results. We did not make
any recommendations in the report but provided our observations to the IPA firm and
Postal Service management throughout the year.

Fiscal Year 2010 Quality of         FF-MA-11-001           1/3/2011            None
Postal Service Financial
Testing and Compliance
Results
Report Results:
The FTC group did not report all exceptions they identified during their reviews, causing
their results to not always be consistent with the OIG’s results. We did not make any
recommendations in the report but communicated issues to Postal Service
management throughout the year.




                                                   6
Fiscal Year 2012 Financial Testing Compliance Oversight        FT-AR-13-006
 Business Mail Entry Unit/Staged Detached Mail Unit Reviews


                           Appendix B: Management's Comments




                                                   7
Fiscal Year 2012 Financial Testing Compliance Oversight       FT-AR-13-006
 Business Mail Entry Unit/Staged Detached Mail Unit Reviews




                                                   8
